                                                 NATIONAL SCIENCE FOUNDATION
                                                      4201 WILSON BOULEVARD
                                                     ARLINGTON, VIRGINIA 22230




                      OFFICE OF
                 INSPECTOR GENERAL




                MEMORANDUM
I
I       '       Date: April 30, 1999
I                                                                1
I
                To:     File I98 120035
                        Thru:                      ysistant Inspector General for Investigations

                From:                  .   special Agent     '



                RE:     closeout -           Investigation

I   ,   -   -   B ackF--
                      round -



                See attached Draft Briefing Report dated 01/21/99.



                See attached Draft Briefing Report dated 01/21/99.

                        In addition to the information included in the Draft Briefing Report, I attended the
                NSF site review at          from April 26-28,1999. A significant amount of time was
                spent during the site review discussing security at the       facility. The NSF program
                and awards officials and          personnel are actively seeking measures to mitigate
                future occurrences at

                Conclusions

                        Based on the fact that there have been no other shots fired at the       facility,
                and the fact that all parties concerned are working to minimize the possibility of future
                gun fire at the facility, this case is closed.
                       Dkl-IFT BRIEFING REPORT 0112 1IYY




 Background
 The , -GI ,                  d   l                                     is the single most
 expensive project funded in the history of the National Science Foundation (NSF).
is being built through a cooperative agreement between NSF and                 . There are two
observatories, which must operate in conjunction with each other, one in
and the otkier in                      The design of the               facility, located on the
Department of ~ n e r ~ f
                                    - -  -
                                                          was used in the construction of the
                 . facility, located in what was formerly                logging property.
The                 ,property was and is hunted extensively.
Purchased the property at the                ,    location and leased the property to
The U.S. government owns the buildings, equipment, and all improvements to the land at
the       facilities.

When operational, the      facility in             will operate with approximately 25
permanent employees and 30 to 35 visiting scientists daily. Currently,       has ,
working agreements with universities in Russia, Japan, Italy, France, Germany, Great
Britain, and'~ustra1ia.

On November 24, 1998, construction personnel discovered nine bullet holes in the west-
end building of the                                    in what appeared to be deliberate shots
at the building.         personnel reported the incident to the                    Sheriffs
Office, the                 FBI Office, the                             Police Department,
and NSF.         1 perso-nnel had discovered other bullet holes at a previous date, but these
appeared to be accidental. In addition,           personnel have had altercations with a local
hunter regarding his claim that he has the right to hunt on         property. On January 11
and 12, 1999, NSF-OIG       Assistant Inspector General for Investigations                and
                       -- -
Special Agent                   traveled to the      -                          o coordinate
investigative'efforts with the Sheriffs Office and the FBF In addition, NSF Program
Manager                - and Grants Officer                 requested that           and
        review security at the          facility.

Findings and Results of Trip
NSF-OIG personnel met with the Acting Resident Agent-in-Charge for the FBI, the
                   Sheriff, and the                  Sheriffs Office Chief of Detectives.
The Goup agreed to coordinate efforts regarding any incident at the
          I                                                                  facility.
Sheriff .'      -      emphasized his willingness to provide a high level of service to the
    ' facility. FBI Special Agent                offered the assistance of the FBI if
needed by the'sheriff s Office. At this time the     -             Sheriffs Office is
continuing its investigation into the shootings.
                        LAAFT BRIEFING REPORT 01/21/99                                        2
                             - 1'
                            Ib''   ,       Shooting Report
 The evidence at the west-end building revealed that the nine shots were fired at a
downward trajectory to the building. A tenth shot was fired at an undetermined angle and
struck the upper southwest corner of the building. Both            -.-         Sheriffs
Office ~etectivesand NSF-OIG investigators concurred that the shots were fired from
the property to the southwest of the -,    , west-end building property, due to the higher
elevation of that property. Trees and foliage and the sloping terrain surrounding thL
facility would have prevented the,shots from coming from another location. The
Sheriffs Office sent a slug recovered from the interior of the west-end building for
analysis. The slug was identified as coming from a .380 or a .357 caliber weapon. Due
to the pattern of the bullet holes around the light fixture on the west-end building,
investigators concluded that the shooter was targeting the light. (Photographs 1 through
5) See Attachment A for a schematic of the west-end building.

--   - ,Facility Vulnerabilities
           !




1. Insufficient Construction of the Midway and End Buildings

       The facility was constructed with the intent of protecting the vacuum tube from
       stray bullets during hunting season. As a result, an approximately four inch
       concrete shell protects the two 2.5 mile legs of the vacuum tubes. However, only
       polyurethane foam core metal walls protect the end buildings and the midway
       buildings. Eight of the ten bullets, shot at an angle of approximately 33 degrees to
       the horizontal plane of the building, penetrated the exterior of the building; two
       bullets penetrated into the interior of the building. A direct shot would most
       likely enter the buildings.

2. Doors on the Protective Concrete Tubes Open and Unlocked

       The concrete shells encasing the vacuum tubes have metal doors at frequent
       intervals to permit access to the vacuum tubes. The doors were left open and
       unlocked to allow access for contractors.          ,ersonnel initially stated that
       these doors are closed at night. However, on the-second day of the inspection the
       same doors were open. A door standing open affords direct access to the vacuum
       tube (Photograph set 6). A shot fired into one of these open doors would
       penetrate the vacuum tube. In addition, there were many animal tracks, including
       cattle and deer, around the        property. There was a large pool of urine inside
       one of the doors to the vacuum tube. A large animal such as a cow or deer could
       cause substantial damage to the vacuum tube should it enter the vacuum tube shell
       through an open door and become trapped (Photograph 7).               personnel
       inforined the investigators that these doors had only been open for a couple of
       days. However, when investigators identified the open doors and the possible
       consequences,         personnel failed to close the doors. _ - - - personnel also
       informed investigators that the locks on the doors are defective and are in the
       process of being replaced.
                           LAAFT BRIEFING REPORT 01/21/99
                      .,     L.,,.v', I ,.- .
                                    , j,. z   Shooting Report

       Once inside the concrete shell, an individual can proceed to the end buildings,
       which are only secured with sheet metal and plastic sheeting from the inside of
       the concrete shell. At the time of inspection the south-end building contained in
       exyess of $100,000 of portable electronic equipment according to       _ _ - - - ._ ,
       Head of the         facility. (Photographs 8 through 10)

       The doors to the concrete shell surrounding the vacuum are hollow and made of
        12 gauge (7164 inch thick) steel. The manufacturer of the doors has not
       conducted ballistic testing on the doors. However, the company's chief engineer
       believes that the doors can "probably" stop a bullet striking on the oblique, but
       that a shot directly the doors would "probably not" prevent a bullet from passing
       through the doors into the interior.

3. "Bullseyes" on the Concrete Tubes

      The concrete tubes protecting the vacuum tube have several round holes
      approximately six inches in diameter plugged with red plastic. The holes were
      drilled to allow for heating of the vacuum tube. Several of the holes are
      posifioned so that if a shot were fired into the red plastic discs, it would penetrate
      the vacuum tube. NSF-OIG investigators and                             ;heriff s Office
      detectives surmise that these red, round, plastic cap; could prove irresistible
      targets to vandals. (Photograph 11)

4. Fear of Eocal Residents

      There may be a problem with dissemination of information to local residents
      regarding the       facility, its mission, and research objectives. One local
      resident made the comment to NSF-OIG investigators and
      Sheriffs Office Detectives that when he bought his house two          ago, the
      previous owner was very worried about what was going on at the            facility.
      The resident then asked if he was going to "turn green" from the work being done
      at --

5. Limited Buffer for '      '   Property

      The concrete shells encasing the vacuum tubes are located on 150 ft. and 300 ft.
      tractsiof land designated as         ~roperty.                and other property
      owners control the land outside these 150 ft and200 ft. tracts of land. The open
      spaces between the         facility and the tree line located on the neighboring
      properties make the facility vulnerable to an erratic shot.

6. Cattle Fence as Fencing Around             '   Facility

      A barbwire cattle fence is the only fence surrounding the property. This fence has
      been cut several times allowing cattle to enter the      property. During the
                      LIG~FTBRIEFING REPORT 01/21/99                                       4
                           -             Shooting Report
      inspection of the      I facility, NSF-OIG investigators observed deer run through

      the fence without hindrance.

7. Access Roads To the         1 Facility


      There are currently two access roads to the facility, one permanent and one
      temporary. Both are unpaved dirt roads. - _ personnel stated that the gates to
      the'roads are closed each night. However, Sheriffs Office personnel stated that
      the gates have been unsecured during night patrols. The         facility is unable
      to prevent unauthorized people entering the facility. The _ facility has
                                                                     .

      contracted with a security firm to provide unarmed security for four hours
      betheen 6:00 p.m. and mid-night Monday through Friday and for eight hours
      between noon and mid-night on Saturday and Sunday.
                             ATTACHMENT A




LEGEND

1E X1         EXIT

I   JOJ   1   ROOM W 8 E R

END S T A T ~ ~ "A"
                 N
